 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




THE UNIVERSITY OF SOUTH FLORIDA
  DID NOT ALWAYS CLAIM COSTS
      IN ACCORDANCE WITH
     FEDERAL REGULATIONS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         April 2014
                                                       A-04-12-01016
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The University of South Florida did not always claim selected costs charged directly to HHS
 awards in accordance with Federal regulations and NIH guidelines. We estimated that the
 University claimed at least $6.4 million in unallowable transactions charged directly to HHS
 awards.

WHY WE DID THIS REVIEW

The University of South Florida (the University) received a high level of Department of Health
and Human Services (HHS) funding, including funds from the American Reinvestment and
Recovery Act (ARRA). Also, audits conducted by the HHS Office of Inspector General (OIG)
and by the Florida Auditor General included significant findings. For example, the Florida
Auditor General found that Federal grant expenditures were not monitored to ensure that
expenditures were properly approved, valid, reasonable, or necessary. On the basis of the
findings of these prior audits, we are concerned that the University’s grant management is a
high-risk area.

Our objective was to determine whether the University claimed selected costs charged directly to
HHS awards in accordance with Federal regulations and applicable guidelines.

BACKGROUND

University of South Florida

The University is a State institution located in Tampa, Florida. During the period October 1,
2009, through September 30, 2011, the University claimed reimbursement for approximately
$198 million in costs incurred on 302 grants, contracts, and other agreements (awards) from
HHS. (See the table below.) This amount included $12.5 million in ARRA funds.

                          Table: Federal Funding by Operating Division

                                                                Number
                  Operating Division                               of          Costs
                                                                Awards
Administration for Children and Families                           3         $1,619,000
Agency for Health Care Policy and Research                         8          3,119,533
Centers for Disease Control and Prevention                        13         10,620,970
Centers for Medicare & Medicaid Services                           1          1,000,000
Health Resources and Services Administration                      43         22,635,287
National Institutes of Health                                    229        157,249,083
Substance Abuse and Mental Health Services                         5          1,679,580
Administration
 Total                                                          302        $197,923,453




HHS Awards at The University of South Florida (A-04-12-01016)                                    i
Federal Requirements

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards were allowable under the cost
principles established in 2 CFR part 220, Appendix A. These cost principles require that, to be
allowable, costs must be reasonable, be allocable, and conform to any exclusions or limitations
set forth in the cost principles or sponsored agreements. In addition, National Institutes of
Health (NIH) awards are subject to NIH guidelines, which include limitations on salary costs.

Award Administration

The University’s Division of Sponsored Research accepts and administers awards on behalf of
the University. It is responsible for reviewing transactions proposed by colleges, departments,
and principal investigators to ensure that those transactions fully comply with Federal
regulations.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

WHAT WE FOUND

The University did not always claim selected costs charged directly to HHS awards in
accordance with Federal regulations and NIH guidelines. In our sample of 112 salary
transactions, 78 were allowable but 34 were not, and in our sample of 110 nonsalary transactions,
70 were allowable but 40 were not. On the basis of our sample results, we estimated that, of
approximately $24.8 million in transactions, the University charged at least $6.4 million in
unallowable transactions and related facilities and administrative costs to HHS awards during
fiscal years 2010 and 2011.

These unallowable transactions occurred because the University did not provide adequate
oversight to ensure consistent compliance with Federal regulations.

WHAT WE RECOMMEND

We recommend that the University:

    •   refund $6,467,290 to the Federal Government and

    •   enhance oversight of charges to Federal awards to ensure consistent compliance with
        Federal regulations.

UNIVERSITY OF SOUTH FLORIDA COMMENTS AND OUR RESPONSE

In written comments on our draft report, University officials disagreed with our overall findings.
Specifically, the officials stated that:




HHS Awards at The University of South Florida (A-04-12-01016)                                      ii
    •   41 of the 43 salary transactions that we questioned were allowable and

    •   39 of the 43 nonsalary transactions that we questioned were allowable.

The University’s written comments included a transaction-by-transaction discussion of our
findings and additional supporting documentation that had not been provided to us during our
fieldwork. University officials requested that we not include the additional documentation in the
final report.

After reviewing the additional information that the University provided, we reduced the number
of unallowable salary transactions from 43 to 34 and the number of unallowable nonsalary
transactions from 43 to 40. Accordingly, we reduced our estimated overpayment to
approximately $6.4 million.




HHS Awards at The University of South Florida (A-04-12-01016)                                  iii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 University of South Florida ............................................................................... 1
                 Federal Requirements ........................................................................................ 1
                 Award Administration ....................................................................................... 2

           How We Conducted This Review.................................................................................. 2

FINDINGS ................................................................................................................................. 3

           The University Did Not Always Claim Costs in Accordance With
            Federal Regulations and Applicable Guidelines ......................................................... 3
                 Salary Costs ....................................................................................................... 3
                 Nonsalary Costs ................................................................................................. 4

           The University Did Not Always Provide Adequate Oversight ...................................... 6

           Estimate of Unallowable Costs ...................................................................................... 6

RECOMMENDATIONS ........................................................................................................... 6

UNIVERSITY OF SOUTH FLORIDA COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................. 7

           Summary of University Comments ............................................................................... 7
           Summary of Office of Inspector General Response ...................................................... 7
           Detailed Comments and Responses ............................................................................... 7
                  Salary Costs: Transactions Involved Administrative or Clerical Work............ 7
                  Salary Costs: Transactions Charged in Excess of Salary Rates ........................ 8
                  Salary Costs: Transactions Charged in Excess of NIH
                    Graduate Student Compensation Guidelines .................................................. 8
                  Salary Costs: Unallowable Transaction ............................................................ 9
                  Salary Costs: Allocation Issues ......................................................................... 9
                  Nonsalary Costs: Subrecipient Claimed as Vendor .......................................... 10
                  Nonsalary Costs: Insufficient Documentation .................................................. 10
                  Nonsalary Costs: Service Centers ..................................................................... 11
                  Nonsalary Costs: Other Questioned Transactions ............................................ 11




HHS Awards at The University of South Florida (A-04-12-01016)                                                                                     iv
APPENDIXES

        A: Audit Scope and Methodology ................................................................................ 13

        B: Federal Requirements............................................................................................... 15

        C: Sample Design and Methodology ............................................................................ 19

        D: Sample Results and Estimates ................................................................................. 23

        E: Related Office of Inspector General Reports ........................................................... 25

        F: University of South Florida Comments .................................................................... 26




HHS Awards at The University of South Florida (A-04-12-01016)                                                                       v
                                           INTRODUCTION

WHY WE DID THIS REVIEW

The University of South Florida (the University) received a high level of Department of Health
and Human Services (HHS) funding, including funds from the American Reinvestment and
Recovery Act (ARRA). Also, audits conducted by the HHS Office of Inspector General (OIG)
and by the Florida Auditor General included significant findings. For example, the Florida
Auditor General found that Federal grant expenditures were not monitored to ensure that
expenditures were properly approved, valid, reasonable, or necessary. On the basis of the
findings of these prior audits, we are concerned that the University’s grant and contract
management is a high-risk area.

OBJECTIVE

Our objective was to determine whether the University claimed selected costs charged directly to
HHS awards in accordance with Federal regulations and applicable guidelines.

BACKGROUND

University of South Florida

The University is a State institution located in Tampa, Florida. During the period October 1,
2009, through September 30, 2011, the University claimed reimbursement for approximately
$198 million in costs incurred on 302 grants, contracts, and cooperative agreements (awards)
from HHS. (See Table 1 below.) This amount included $12.5 million in ARRA funds.

                         Table 1: Federal Funding by Operating Division

                                                                Number
                  Operating Division                               of          Costs
                                                                Awards
Administration for Children and Families                            3       $1,619,000
Agency for Health Care Policy and Research                          8        3,119,533
Centers for Disease Control and Prevention                         13       10,620,970
Centers for Medicare & Medicaid Services                            1        1,000,000
Health Resources and Services Administration                       43       22,635,287
National Institutes of Health                                     229      157,249,083
Substance Abuse and Mental Health Services                          5        1,679,580
Administration
  Total                                                          302       $197,923,453

Federal Requirements

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards were allowable under the cost



HHS Awards at The University of South Florida (A-04-12-01016)                                     1
principles established in 2 CFR part 220, Appendix A (the Circular). 1 The cost principles
require that, to be allowable, costs must be reasonable, be allocable, and conform to any
exclusions or limitations set forth in the cost principles or sponsored agreements. In addition,
National Institutes of Health (NIH) awards are subject to NIH guidelines, which include
limitations on graduate student salary costs supported by NIH research grants and cooperative
agreements.

Award Administration

The University’s Division of Sponsored Research accepts and administers awards on behalf of
the University. It is responsible for reviewing transactions proposed by colleges, departments,
and principal investigators to ensure that those transactions fully comply with Federal
regulations.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

HOW WE CONDUCTED THIS REVIEW

Our audit covered approximately $12 million in salary transactions and approximately
$12.8 million in nonsalary transactions claimed for reimbursement from October 1, 2009,
through September 30, 2011 (fiscal years (FYs) 2010 and 2011).

We selected a random sample of 112 salary transactions totaling $334,732 and a random sample
of 110 nonsalary transactions totaling $1,494,381 for review. We initially evaluated the sample
transactions on the basis of documentation in the University’s project files. For transactions not
adequately supported by the project files, we asked the University’s Division of Sponsored
Research and the principal investigators on the related awards to submit additional information.

We discussed our tentative findings with NIH representatives during our audit. 2 NIH provided
additional information regarding the nature of the awards to which the sampled transactions were
charged, and we considered that information in reaching our conclusions on the allowability of
the costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B lists the
Federal requirements related to awards, Appendix C contains the sample design and
1
 For Federal contracts awarded under the Federal Acquisition Regulation (FAR) to an educational institution, the
OMB grant cost principles are applied to determine the allowability of costs (48 CFR § 31.303).
2
  We discussed our NIH grant findings with NIH during the audit because the majority of our sample transactions
related to NIH grant awards.


HHS Awards at The University of South Florida (A-04-12-01016)                                                      2
methodology, Appendix D contains the sample results and estimates, and Appendix E contains a
list of related OIG reports.

                                                     FINDINGS

The University did not always claim selected costs charged directly to HHS awards in
accordance with Federal regulations and, where appropriate, NIH guidelines. In our sample of
112 salary transactions, 78 were allowable but 34 were not, and in our sample of 110 nonsalary
transactions, 70 were allowable but 40 were not. 3 On the basis of our sample results, we
estimated that, of approximately $24.8 million in transactions, the University charged at least
$6.4 million in unallowable transactions and related F&A costs 4 to HHS awards during fiscal
years 2009 and 2010. (See Table 2 below.)

                             Table 2: Unallowable Transactions Charged to
                                HHS Awards During FYs 2010 and 2011

                                                                         Amount Unallowable
                   Salary transactions                                      $2,270,266
                   Related F&A costs                                           950,386
                      Subtotal Salary Costs                                  3,220,652

                   Nonsalary transactions                                         1,731,905
                   Related F&A costs                                              1,514,733
                     Subtotal Nonsalary Costs                                     3,246,638

                       Total                                                    $6,467,290

These unallowable transactions occurred because the University did not provide adequate
oversight to ensure consistent compliance with Federal regulations.

THE UNIVERSITY DID NOT ALWAYS CLAIM COSTS IN ACCORDANCE WITH
FEDERAL REGULATIONS AND APPLICABLE GUIDELINES

Salary Costs

Of the 112 transactions totaling $334,732 in our sample of salary costs, 34 transactions
totaling $85,618 were not allowable. Specifically:


3
 For some of the transactions, we questioned only a portion of the transaction or the related facilities and
administrative (F&A) costs.
4
 The Circular § E.1 defines F&A costs as “those that are incurred for common or joint objectives and therefore
cannot be identified readily and specifically with a particular sponsored project, an instructional activity, or any
other institutional activity.”


HHS Awards at The University of South Florida (A-04-12-01016)                                                          3
       •   Twenty-seven transactions were for salary costs for administrative and clerical work such
           as ordering supplies, performing general information technology work, and supervising
           data collections. These costs should not have been charged directly to the award because
           they involved salaries of administrative and clerical staff, and neither the nature of the
           work performed on the projects nor any other circumstances justified any unusual degree
           of administrative support or showed that the employees were necessary for the
           performance of the awards. Salaries of administrative and clerical staff should normally
           be treated as F&A costs unless an unusual degree of administrative support is justified as
           necessary to perform the award (the Circular, § F.6.b.(2)).

       •   Three transactions included payments at a rate in excess of the employees’ supported
           salary rates 5 (45 CFR § 74.21 (b)(7)).

       •   Two transactions on NIH awards included amounts in excess of NIH guidelines that limit
           graduate student compensation. Graduate student pay must not exceed the stipend levels
           set by NIH for National Research Service Awards (NIH Notice NOT-OD-02-017, NIH
           Grants Policy Statement (GPS), section on “Compensation of Students” (eff. 12/1/03 –
           9/30/2010) and section 11.2.9.3 (eff. 10/1/2010 – 9/30/2011)).

       •   One transaction was salary for an employee hired for the sole purpose of distributing
           promotional items. However, promotional items and memorabilia are unallowable, so the
           compensation paid to any individual to distribute such items would also be unallowable
           (the Circular, § J.1.f.(3)).

       •   One transaction was not allocated correctly. The University charged 100 percent of a
           payout for a terminated employee to one grant rather than allocating the payout on the
           basis of the employee’s former workload. We questioned only the amount that should
           not have been charged to the NIH award. A cost is allocable to a sponsored agreement if
           it benefits both the sponsored agreement and other work of the institution in proportions
           that can be approximated through use of reasonable methods (the Circular, § C.4.a).

On the basis of our sample results, we estimated that these unallowable salary transactions
resulted in overcharges of at least $3,220,652 to HHS awards during our audit period
($2,270,266 in salary costs plus $950,386 in related F&A costs).

Nonsalary Costs

Of the 110 transactions totaling $1,494,381 in our sample of nonsalary costs, 40 transactions
totaling $139,556 were not allowable. Specifically:

       •   Sixteen transactions that were otherwise allowable had F&A claimed in excess of the
           allowable amount. The University treated these transactions as vendor costs when they
           were actually subcontract costs. 6 The amount of F&A that can be claimed on


5
 The unallowable amount was the difference between the rate of pay on the source documents and what was
actually claimed.
6
    After our audit period, the University began treating these costs as subrecipient costs.

HHS Awards at The University of South Florida (A-04-12-01016)                                             4
           subrecipient costs—which includes subcontract and subgrant costs—is limited, but no
           such limit exists for vendor purchases. 7 OMB Circular A-133 B § ___.210(b) lists
           characteristics of a subrecipient relationship. These characteristics include when the
           organization “[h]as its performance measured against whether the objectives of the
           Federal program are met; [h]as responsibility for programmatic decision making; has
           responsibility for adherence to applicable Federal program compliance requirements;
           [and u]ses the Federal funds to carry out a program of the organization as compared to
           providing goods or services for a program of the pass-through entity….” Meanwhile,
           vendors provide “goods or services that are ancillary to the operation of the Federal
           program” (OMB Circular A-133 B § ___.210(c)(4)). The criteria state that the substance
           of the relationship is more important than the form of the agreement (OMB Circular
           A-133 B § ___.210(d)). In this case, the University treated a subcontractor as a vendor
           even though the substance of the work performed by the entity was central to the work of
           the award. The entity had responsibility for dealing directly with other subcontractors,
           giving them a decision-making role and responsibility for program compliance. By
           classifying subcontract costs as vendor purchases, the University claimed F&A on costs
           for which it should not have received F&A. Therefore, the F&A related to these
           transactions was unallowable because the University had already exceeded the dollar
           limit on subrecipient costs.

       •   Eleven transactions were not supported with sufficient documentation. The University
           charged shipping fees without documenting that the costs were allocable to the grant. It
           did not track the destination or contents of the shipment. Therefore, the shipment could
           not be tied to the award. According to 45 CFR § 74.21(b)(7), recipient financial
           management systems shall provide for accounting records, including cost accounting
           records that are supported by source documentation.

       •   Four transactions related to two specialized service centers were not charged in
           accordance with Federal regulations. The University did not provide a schedule of rates
           or a cost basis for its telecommunications center and did not always document the
           allocation of animal center costs on the basis of usage. The costs of services provided by
           specialized facilities must be charged based on actual usage of the services and based on
           a schedule of rates or established methodology (the Circular § J.47.b.).

       •   Four transactions were for general-use supplies such as toner, computers, and tablet
           computers, which should have been treated as F&A costs and not charged directly to the
           award. “Items such as office supplies, postage, local telephone costs, and memberships
           shall normally be treated as F&A costs” (the Circular § F.6.b.(3)). Furthermore,
           beginning in October 2010, the GPS, section 7.9.1, specifically states: “Office equipment
           (copiers, laptops, desktop computers, personal handheld computers, fax machines,
           scanners, etc.) that is used for general office purposes (rather than justified as a specific
           research purpose) are not allowable as direct costs; they are allowable as an F&A cost.”8



7
    The Circular § G.2. limits F&A to the first $25,000 of each subcontract or subgrant.
8
    These transactions were claimed on NIH grant awards; therefore, NIH grant criteria apply.

HHS Awards at The University of South Florida (A-04-12-01016)                                           5
    •   Three transactions were not allowable. These transactions included a charge for media
        consulting that the University paid without an agreement that specified either the service
        to be provided or the rate of compensation in violation of the regulations at the Circular
        § J.37.b.(8)). Other transactions included a donation and promotional items. Both
        donations and promotional items are unallowable (the Circular §§ J.15.a. and J.1.f.(3)).

    •   One transaction did not meet the criteria for reasonableness. One consideration for
        reasonableness is whether the type of cost is generally recognized as necessary for the
        conduct of the organization or the award performance (the Circular § C.3.(a)). The
        University had a contract with a labware supplier that included a handling fee in the cost
        of the items; however, it routinely paid extra handling fees to receive partial shipments
        rather than ordering a full shipment. The University did not provide a justification for
        partial shipments.

    •   One transaction was for a large amount of fiber-optic cable with no justification showing
        that it was used for the performance of the award. Only materials and supplies actually
        used for the performance of a sponsored agreement may be charged as a direct cost (the
        Circular § J.31.c.).

On the basis of our sample results, we estimated that these unallowable nonsalary transactions
resulted in overcharges of at least $3,246,638 to HHS awards during our audit period
($1,731,905 in nonsalary costs plus $1,514,733 in F&A costs).

THE UNIVERSITY DID NOT ALWAYS PROVIDE ADEQUATE OVERSIGHT

These unallowable transactions occurred because the University did not always provide adequate
oversight to ensure consistent compliance with Federal regulations. Although its procedures
often incorporated text from the applicable cost principles, the University’s Division of
Sponsored Research did not review transactions to ensure that the principal investigator’s
proposed transactions fully complied with Federal regulations. Without adequate oversight, the
University could not ensure that administrative expenses charged as direct costs to HHS awards
complied with applicable Federal regulations.

ESTIMATE OF UNALLOWABLE COSTS

On the basis of our sample results, we estimated that the University’s unallowable transactions
resulted in total overcharges of at least $6,467,290 to HHS awards during our audit period.

                                       RECOMMENDATIONS

We recommend that the University:

    •   refund $6,467,290 to the Federal Government and

    •   enhance oversight of charges to Federal awards to ensure consistent compliance with
        Federal regulations.



HHS Awards at The University of South Florida (A-04-12-01016)                                        6
                   UNIVERSITY OF SOUTH FLORIDA COMMENTS AND
                     OFFICE OF INSPECTOR GENERAL RESPONSE

SUMMARY OF UNIVERSITY COMMENTS

In written comments on our draft report, University officials disagreed with our overall findings.
Specifically, the officials stated that:

    •   41 of the 43 salary transactions that we questioned were allowable and

    •   39 of the 43 nonsalary transactions that we questioned were allowable.

The University’s written comments included a transaction-by-transaction discussion of our
findings and additional supporting documentation that the University did not provide to us
during our fieldwork. Because the documentation contained confidential and proprietary
information, University officials requested that we not include it in the final report. The
University’s comments, excluding the additional supporting documentation, are included as
Appendix F.

SUMMARY OF OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the additional documentation that the University provided, we reduced the
number of unallowable salary transactions from 43 to 34 and the number of unallowable
nonsalary transactions from 43 to 40. Accordingly, we reduced our estimated overpayment to
approximately $6.4 million.

DETAILED COMMENTS AND RESPONSES

Salary Costs: Transactions Involved Administrative or Clerical Work

University Comments

University officials disagreed with most of the 35 transactions that we determined involved
employees whose duties were administrative or clerical. In their comments on our draft report,
University officials stated that most of the employees’ duties were technical or programmatic in
nature. The officials further stated that the employees were also working on major projects and
that, because the “sponsor” accepted the budget with the employee positions, their salaries would
therefore be allowable regardless of duties.

Office of Inspector General Response

After reviewing the additional documentation that the University provided, we agree that eight
transactions involving employee salaries were allowable. However, the remaining 27
transactions were for administrative or clerical employees and were, therefore, unallowable.




HHS Awards at The University of South Florida (A-04-12-01016)                                    7
Documentation that the University provided for these 27 transactions showed that the
employees’ administrative activities were not related solely to the project to which their salary
was charged. Rather, the employees’ administrative duties benefited multiple activities and
could not be tied to an individual project. Because the administrative activities did not solely
benefit the project to which the University charged the salary costs, we applied cost principles
that state: “The apportionment of employees’ salaries and wages which are chargeable to more
than one sponsored agreement or other cost objective will be accomplished by methods which
will … (iii) distinguish the employees’ direct activities from their F&A activities” (J.10.b (1)(b)
of the Circular). In addition, we could not determine the percentage of effort these employees
spent on administrative activities because the University’s effort reports did not reflect time
spent on administrative tasks. Therefore, we continue to question the costs related to these 27
transactions.

Salary Costs: Transactions Charged in Excess of Salary Rates

University Comments

University officials agreed with two of the three transactions that we questioned because they
exceeded salary rates. Although they initially argued that they had sponsor approval for the
transaction involving extra compensation, they concurred with our finding that the extra
compensation was incorrectly paid at a time-and-a-half rate. The officials said that a third
transaction was a retroactive pay increase that was accurately documented and allocated.

Office of Inspector General Response

The additional documentation that the University provided did not show the pay increase as
being retroactive. Therefore, we continue to question these costs.

Salary Costs: Transactions Charged in Excess of
NIH Graduate Student Compensation Guidelines

University Comments

University officials disagreed with our finding that two transactions were paid in excess of the
NIH graduate student compensation guidelines. They stated that one of the employees was not a
student at the time of the charge. In addition, University officials said that they followed NIH
salary guidelines for student compensation levels and that the University used its rebudgeting
authority to rebudget additional funds to pay a higher compensation level.

Office of Inspector General Response

For one transaction, the University did not provide documentation showing that the employee in
question was not a student at the time of the transaction.

In regard to the second transaction, NIH guidance allows institutions to rebudget funds to charge
more than the awarded amount, provided that they observe the cost principles requiring



HHS Awards at The University of South Florida (A-04-12-01016)                                         8
reasonable compensation. The guidance also states that graduate student compensation will not
be considered reasonable if it is in excess of the amount paid to a first-year postdoctoral scientist
at the same institution performing comparable work. The University did not provide any
additional evidence to show that the student was performing work that justified pay in excess of
a first-year postdoctoral stipend. Therefore, the amount the University paid in excess of a first-
year postdoctoral stipend was not reasonable.

We continue to question these two transactions.

Salary Costs: Unallowable Transaction

University Comments

University officials said that the University’s contract required it to engage in public relations
efforts, including the use of incentive items such as keychains to encourage individuals to
participate in a clinical trial. University officials agreed that “promotional items” were not
allowable charges to Federal awards, but they argued that these keychains were incentives rather
than promotional items.

Office of Inspector General Response

The Circular, § J.1.f.(3) specifically states that promotional items and memorabilia, including
gifts and souvenirs, are unallowable. Items such as keychains are equivalent to promotional
items. In addition, University officials did not address the reasonableness of having an employee
whose sole duty was to distribute these keychains. Therefore, we continue to question this cost.

Salary Costs: Allocation Issues

University Comments

University officials did not agree that they incorrectly allocated an employee’s bonus payment.
The officials said that the employee’s effort report showed two different account (project)
numbers for the same award. The officials further explained that it is the University’s practice to
assign a new internal project number to a grant that has been competitively renewed. Thus, one
award could have two project numbers.

In regard to a second transaction, University officials did not agree that they incorrectly allocated
an employee’s terminal leave payout. The officials said that the employee had worked
exclusively on the project for the period of time required to accrue the amount of leave for which
the University paid her.

Office of Inspector General Response

After assessing the University’s explanation and the additional documentation that it provided,
we agree that the costs related to the bonus payment transaction we questioned were allowable
and adjusted our findings accordingly.



HHS Awards at The University of South Florida (A-04-12-01016)                                       9
In regard to the second transaction, the University did not provide documentation to support its
assertion that the employee’s leave was accrued working exclusively on the award. Therefore,
we continue to question this cost.

Nonsalary Costs: Subrecipient Claimed as Vendor

University Comments

University officials disagreed with our finding that 16 transactions that were otherwise allowable
had F&A claimed in excess of the allowable amount. The officials believed that they correctly
treated these transactions as vendor costs rather than as subcontract costs.

University officials stated that they had more than one agreement with the company in question.
The officials said that they had a subaward established for repository services with the company
that was separate from a vendor relationship with the company for supply purchases.

Office of Inspector General Response

The University treated a subcontractor as a vendor even though the substance of the work
performed by the company was central to the work of the award. (See OMB Circular A-133 B
§ ___.210(b) for the characteristics of a subrecipient relationship.) The company had
responsibility for dealing directly with other subcontractors, giving them a decision-making role
and responsibility for program compliance. Therefore, the University should have treated the
company as a subcontractor.

By classifying subcontract costs as vendor purchases, the University claimed F&A on costs for
which it should not have received F&A. Therefore, we continue to question these 16
transactions.

Nonsalary Costs: Insufficient Documentation

University Comments

University officials disagreed that 14 transactions for shipping costs were not supported by
sufficient documentation. They provided additional documentation to show what was being
shipped and its relation to the award. One transaction was related to a subcontract with another
university. The University provided the relevant subcontract and invoice.

Office of Inspector General Response

After reviewing the additional documentation that the University provided, we agree that the
costs related to three of the transactions we questioned were allowable. The University did not
provide additional documentation for the remaining 10 transactions that would allow us to
determine the destination or contents of the shipments. Therefore, the shipments could not be
tied to the award.




HHS Awards at The University of South Florida (A-04-12-01016)                                      10
The University provided the relevant subcontract and invoice for the charge from another
university. However, the invoice that the University provided did not show what services were
provided or how the cost benefited the award.

We continue to question these costs.

Nonsalary Costs: Service Centers

University Comments

University officials agreed that one telecom service center transaction was unallowable.
However, the officials believed their methodology for allocating research animal per diems was
sufficient to support the costs claimed. The officials said that the investigators’ allocation
methodologies were reasonably designed to charge projects in accordance with the proportional
benefit each project received.

Office of Inspector General Response

The additional documentation that the University provided showed that the awards’ investigators
split an invoice from the service center between multiple awards on the basis of percentage
allocations. However, the investigators did not describe the method that they used to arrive at
those percentages. The investigators listed several factors that they said were considered in
making the allocations, but they did not describe their allocation methodology. Therefore, we
continue to question the allowability of these transactions.

Nonsalary Costs: Other Questioned Transactions

University Comments

University officials argued that the Circular (§ F.6.b.3) allows it to direct charge certain
nonsalary costs that are normally treated as F&A. Also, the officials stated that section D.2.
contains provisions that would allow it to directly charge certain costs normally treated as F&A.
The officials agreed that the University should have recovered through its F&A rate certain
general-use supply costs, such as toner costs. University officials disagreed that seven other
transactions were unallowable. The officials stated that the sponsor accepted the budget, which
included the purchase of the computers. They further stated that the computers were used solely
on the award and were therefore allowable. The officials also stated that two transactions were
for “outreach efforts” that were covered under the award’s scope of work.

University officials said that they provided additional documentation for the media consultant
costs. The officials did not comment on our finding that they routinely paid extra handling fees
to receive partial shipments. They agreed that a portion of the transaction involving fiber-optic
cables was unallowable.




HHS Awards at The University of South Florida (A-04-12-01016)                                   11
Office of Inspector General Response

We do not agree with the University’s position regarding F&A costs charged direct. In making
its argument, University officials did not consider whether the costs were necessary for
performance of the award (the Circular § C.3.(a)).

Notwithstanding the sponsor’s approval of the budget, University officials did not provide
documentation to show that the University used the computers solely on the award and,
therefore, did not adequately address why the 17 computers should be directly charged to the
award. One of the University’s “outreach efforts” was for the purchase of promotional items,
which are specifically unallowable under the Circular. The other was a donation to a nonprofit,
which was also unallowable. The additional documentation that the University provided for the
media consultant costs did not include a signed contract with deliverables. Therefore, we
continue to question the costs related to these transactions.




HHS Awards at The University of South Florida (A-04-12-01016)                                  12
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered approximately $12 million in salary transactions and approximately
$12.8 million in nonsalary transactions claimed for reimbursement from October 1, 2009,
through September 30, 2011 (FYs 2010 and 2011). We limited the audit to grants, contracts, and
other agreements between the University and organizational components of HHS, including NIH,
the Administration for Children and Families, and the Health Resources and Services
Administration. We did not evaluate transactions charged to the University’s agreements with
other Federal departments and agencies.

We limited our assessment of internal controls to the University’s policies and procedures for
charging costs to Federal awards. We conducted our fieldwork between May 2012 and March
2013 at the University’s offices in Tampa, Florida.

METHODOLOGY

To accomplish our objective, we:

    •    reviewed applicable Federal regulations and NIH guidelines;

    •    reviewed the University’s policies and procedures for charging costs to Federal awards;

    •    reviewed the University’s Cost Accounting Standards Board Disclosure Statement
         (DS-2);

    •    reviewed the University’s account codes and identified accounts that we considered
         administrative in nature;

    •    obtained from the University a list of transactions from these accounts, including
         approximately $14.3 million in salary transactions and approximately $12.7 million in
         nonsalary transactions charged directly to HHS awards;

    •    obtained a statement from the University attesting to the completeness and accuracy of
         the list of transactions they provided;

    •    removed negative and low-dollar transactions (less than $25) to arrive at our audit
         sampling frame, including approximately $12 million in salary transactions and
         approximately $12.8 million 9 in nonsalary transactions;

    •    selected and determined the allowability of random samples of 112 salary transactions
         and 110 nonsalary transactions (Appendix C);

9
  The dollar value of our sample is greater than the dollar value of the original list of transactions that we obtained
from the University because many of the transactions that we removed from the original list were negative.


HHS Awards at The University of South Florida (A-04-12-01016)                                                             13
     •   computed the F&A costs related to the transactions determined to be unallowable by our
         review; and

     •   estimated the unallowable amounts that were charged to HHS awards
         (Appendix D).

We initially evaluated the sample transactions on the basis of documentation in the University’s
project files. For transactions not adequately supported by the project files, we asked the
University’s Division of Sponsored Research and the principal investigators on the related
awards to submit additional information.

We discussed our tentative findings with NIH representatives during our audit. 10 NIH provided
additional information regarding the nature of the awards to which the sampled transactions were
charged, and we considered that information in reaching our conclusions on the allowability of
the costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




10
  We discussed our findings primarily with NIH during the audit because the majority of our sample transactions
related to NIH awards.




HHS Awards at The University of South Florida (A-04-12-01016)                                                     14
                          APPENDIX B: FEDERAL REQUIREMENTS

FEDERAL REGULATIONS AND NIH GUIDELINES

The HHS grant administration rules require recipients of grant awards to comply with regulations
governing the use of Federal funds and to ensure that costs charged to those awards were
allowable under the applicable cost principles (45 CFR § 74.27(a)). The cost principles for
educational institutions are established in 2 CFR part 22, Appendix A (the Circular). These cost
principles require that, to be allowable, costs must be reasonable, be allocable, be treated
consistently, and conform to any exclusions or limitations set forth in the cost principles or
sponsored agreements (the Circular § C.2). Additionally, OMB Circular A-133 sets forth
standards for obtaining consistency and uniformity in auditing. NIH awards are also subject to
NIH guidelines, which include limitations on graduate student salary costs supported by NIH
research grants and cooperative agreements. HHS contracts awarded under the FAR to
educational institutions are subject to the Circular to determine the allowability of costs (48 CFR
§ 31.303(a)).

We applied a number of provisions in these rules and policies in the body of our report:

Pursuant to the Circular § C.3:

        A cost may be considered reasonable if the nature of the goods or services
        acquired or applied, and the amount involved therefore, reflects the action that a
        prudent person would have taken under the circumstances prevailing at the time
        the decision to incur the cost was made. Major considerations involved in the
        determination of the reasonableness of a cost are: whether or not the cost is of a
        type generally recognized as necessary for the operation of the institution or the
        performance of the sponsored agreement; the restraints or requirements imposed
        by such factors as arm’s-length bargaining, Federal and State laws and
        regulations, and sponsored agreement terms and conditions; whether or not the
        individuals concerned acted with due prudence in the circumstances, considering
        their responsibilities to the institution, its employees, its students, the Federal
        Government, and the public at large; and, the extent to which the actions taken
        with respect to the incurrence of the cost are consistent with established
        institutional policies and practices applicable to the work of the institution
        generally, including sponsored agreements.

Pursuant to the Circular § C.4.a:

A cost is allocable to a particular cost objective (i.e., a specific function, project, sponsored
agreement, department, or the like) if the goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received or other
equitable relationship. Subject to the foregoing, a cost is allocable to a sponsored agreement if
it is incurred solely to advance the work under the sponsored agreement; it benefits both the
sponsored agreement and other work of the institution, in proportions that can be approximated
through use of reasonable methods, or it is necessary to the overall operation of the institution



HHS Awards at The University of South Florida (A-04-12-01016)                                    15
and, in light of the principles provided in this Appendix, is deemed to be assignable in part to
sponsored projects.

Included in the Circular § F.6.b are specific guidelines regarding the treatment of charges for
administrative and clerical expenses incurred within various departments of a college or
university, including the following: “The salaries of administrative and clerical staff should
normally be treated as F&A costs” (§ F.6.b.2). In addition, “Items such as office supplies,
postage, local telephone costs, and memberships shall normally be treated as F&A costs”
(§ F.6.b.3). Beginning in October 2010, the NIH GPS, section 7.9.1, specifically states: “Office
equipment (copiers, laptops, desktop computers, personal handheld computers, fax machines,
scanners, etc.) that is used for general office purposes (rather than justified as a specific research
purpose) is not allowable as direct costs; it is allowable as an F&A cost.” The Circular’s F&A
guidelines provide an exception for “major projects” in instances where direct charging of the
salaries of administrative and clerical staff may be appropriate. “Major projects” are defined in
section F.6.b.2 of the Circular as projects that require an “extensive amount of administrative or
clerical support which is significantly greater than the routine level of such services provided by
academic departments.”

If the costs of services provided by specialized service facilities are material, they must be
charged directly to applicable awards on the basis of actual usage of the services and on the basis
of a schedule of rates or established methodology (§ J.47.b). The HHS Division of Cost
Allocation’s 11 Best Practices Manual for Reviewing College and University Long-Form
Facilities & Administrative Cost Rate Proposals, dated December 2006, defines a specialized
service facility as:

         a service center that provides highly complex or specialized services that include,
         but are not limited to telecommunication centers, super computers, animal care
         facilities (vivariums), wind tunnels and reactors. The costs for these services
         should be charged directly to the users through a billing rate mechanism. Billing
         rates should be calculated for each SSF [(specialized service facility)] that do not
         discriminate between Federal and non-Federal users including internal university
         activities. The billing rates should be designed to recover the aggregate costs of
         providing the service and shall include both direct and an allocable portion of
         F&A costs. Billing rates must be adjusted biennially to adjust for under or over
         recoveries ... (p. 112).

Furthermore, Federal regulations require recipients’ financial management systems to provide for
accounting records, including cost accounting records, that are supported by source
documentation (45 CFR § 74.21(b)(7)).

The Circular, section G.2, limits to $25,000 the amount of each subgrant and subcontract
included in F&A costs that can be distributed across applicable grants and agreements.



11
  The Division of Cost Allocation provides negotiation services for indirect cost rate proposals and cost allocation
plans, and reviews of cost allocation methods and practices of entities that receive Federal funds.


HHS Awards at The University of South Florida (A-04-12-01016)                                                      16
OMB Circular A-133, Subpart B, §___.210(b) lists characteristics of a subrecipient relationship.
These characteristics include, but are not limited to, when the organization:

    •   has its performance measured against whether the objectives of the Federal program are
        met,

    •   has responsibility for programmatic decision-making, and

    •   has responsibility for adherence to applicable Federal program compliance requirements.

The Circular goes on to list characteristics of vendors, including the provision “goods and
services that are ancillary to the operation of the Federal program.”

NIH issued guidance dated December 10, 2001, regarding graduate student compensation. NIH
notice NOT-OD-02-017 states: “the entry-level postdoctoral [(National Research Service
Award)] NRSA stipend provides a useful benchmark for an award amount that approximates a
reasonable rate of compensation for graduate students.” The guidance further states that NIH
will limit its award for graduate student compensation to the currently effective NRSA stipend
level. The stipend levels are updated annually. The guidance allows institutions to rebudget
funds to charge more than the awarded amount, provided that they observe the cost principles
requiring reasonable compensation. In general, graduate student compensation will not be
considered reasonable if it is in excess of the amount paid to a first-year postdoctoral scientist at
the same institution performing comparable work. During our audit period, the NRSA stipend
levels for an entry-level postdoctoral student were $37,740 for FY 2010 and $38,496 for
FY 2011.

The NIH GPS applicable from December 1, 2003, through September 30, 2010, includes a
“Selected Item of Cost for Compensation of Students,” which provides:

“The maximum amount NIH will award for compensation of a graduate student receiving
support from a research grant is tied to the zero-level Kirschstein-NRSA stipend in effect when
NIH issues the grant award (see current levels posted at http://grants.nih.gov/traning/nrsa.htm.)”

The NIH GPS, which was applicable from October 1, 2010, through September 30, 2011,
included a new section 11.2.9.3:

        Stipend levels are updated periodically in conjunction with an NIH annual
        appropriation. When increases are approved, they are published in the NIH Guide
        for Grants and Contracts. Current levels are posted at
        http://grants.nih.gov/training/nrsa.htm. The NIH awarding [Institute or Center]
        will adjust fellowship awards on their anniversary dates to include the currently
        applicable stipend amount.

        General information related to stipends follows:

    •   Predoctoral. One stipend level is used for all pre-doctoral candidates, regardless
        of the level of experience.


HHS Awards at The University of South Florida (A-04-12-01016)                                       17
    •   Postdoctoral. The stipend level for the entire first year of support is determined
        by the number of full years of relevant postdoctoral experience when the award is
        issued. Relevant experience may include research experience (including
        industrial), teaching assistantship, internship, residency, clinical duties, or other
        time spent in a health-related field beyond that of the qualifying doctoral degree.
        Once the appropriate stipend level has been determined, the fellow must be paid
        at that level for the entire grant year. The stipend for each additional year of
        Kirschstein-NRSA support is the next level in the stipend structure and does not
        change mid-year.

    •   Senior Fellows. The amount of the Kirschstein-NRSA stipend to be paid must be
        commensurate with the base salary or remuneration that the individual receiving
        the award would have been paid by the institution with which he or she has
        permanent affiliation on the issue date of the fellowship award. In no case shall
        the stipend award exceed the current Kirschstein-NRSA stipend limit set by NIH.
        The level of Kirschstein-NRSA support will take into account concurrent salary
        support provided by the institution and the policy of the sponsoring institution.
        NIH support does not provide fringe benefits for senior fellows.




HHS Awards at The University of South Florida (A-04-12-01016)                                   18
                 APPENDIX C: SAMPLE DESIGN AND METHODOLOGY

SALARY SAMPLE

Population

The population consisted of salary transactions for costs on HHS awards charged directly to
normally administrative and clerical accounts for FYs 2010 and 2011.

Sampling Frame

We received an Excel file from the University’s Assistant Controller of Research Financial
Management containing certain salary transactions that should normally be treated as indirect but
that the University charged directly to HHS awards for FYs 2010 and 2011. The file contained
44,979 transactions totaling $14,333,912. We copied the data into a new worksheet and sorted it
by transaction amount. From this worksheet, we:

    •   matched all positive transactions with their corresponding negative transactions by
        comparing the transaction date, dollar amount, and description;

    •   removed negative transactions and the corresponding positive transactions;

    •   removed all other negative transactions with no corresponding positive transaction;

    •   identified all items charged to fringe benefit accounts by the account numbers and
        account descriptions then removed these items;

    •   removed all items less than $25; and

    •   created an Excel spreadsheet containing the remaining transactions.

This spreadsheet contained 11,789 transactions totaling $11,961,978, which was our sample
frame.

Sample Unit

The sample unit was a transaction.




HHS Awards at The University of South Florida (A-04-12-01016)                                  19
Sample Design

We used a stratified sample containing four strata and divided the sampling frame on the basis of
transaction amounts as follows:

                                                             Number of
     Stratum                    Range                       Transactions      Total Dollars

         1          $25 through $999.99                          7,310             $3,448,426
         2          $1,000 through $1,999.99                     2,590              3,703,886
         3          $2,000 through $4,999.99                     1,867              4,604,608
         4          $5,000 and above                                22                205,058
                                             Total              11,789           $11,961,978

Sample Size

We selected a sample size of 112 transactions. The sample size by stratum was:

                            Stratum                Number of Sample Items
                               1                             30
                               2                             30
                               3                             30
                               4                             22
                              Total                         112

Source of Random Numbers

We used the Office of Inspector General, Office of Audit Services (OIG/OAS), statistical
software to generate the random numbers.

Method of Selecting Sample Items

We consecutively numbered each stratum. After generating the random numbers for strata 1, 2,
and 3, we selected the corresponding frame items. For stratum 4, we selected all transactions.

Estimation Methodology

We used the OIG/OAS statistical software to estimate the amount of unallowable administrative
and clerical salary costs claimed as direct costs. The F&A costs associated with the unallowable
administrative and clerical salary costs were also estimated using the OIG/OAS statistical
software.




HHS Awards at The University of South Florida (A-04-12-01016)                                   20
NONSALARY SAMPLE

Population

The population consisted of nonsalary transactions for costs on HHS awards charged directly to
normally administrative and clerical accounts for FYs 2010 and 2011.

Sampling Frame

We received an Excel file from the University’s Assistant Controller of Research Financial
Management containing certain nonsalary transactions that should normally be treated as indirect
but that the University charged directly to HHS awards for FYs 2010 and 2011. The file
contained 21,486 transactions totaling $12,728,356. We copied the data into a new worksheet
and sorted by transaction amount. From this worksheet, we:

     •   matched all positive transactions with their corresponding negative transactions by
         comparing the transaction date, dollar amount of the transaction, and transaction
         description;

     •   removed negative transactions and the corresponding positive transactions;

     •   removed all other negative transactions with no corresponding positive transaction;

     •   removed all items less than $25; and

     •   created an Excel spreadsheet containing the remaining transactions.

This spreadsheet contained 18,750 transactions totaling $12,860,135, 12 which was our sample
frame.

Sample Unit

The sample unit was a transaction.

Sample Design

We used a stratified sample containing four strata. We divided the sampling frame on the basis
of transaction amounts as follows:




12
  The dollar value of our sample is greater than the dollar value of the original list of transactions that we obtained
from the University because many of the transactions that we removed from the original list were negative.


HHS Awards at The University of South Florida (A-04-12-01016)                                                         21
                                                             Number of         Value of
     Stratum                   Range                        Transactions     Transactions
        1           $25 through $499.99                        14,501            $2,464,661
        2           $500 through $4,999.99                      3,873             5,293,147
        3           $5,000 through $49,999.99                     361             4,094,787
        4           $50,000 and above                              15             1,007,540
                               Total                           18,750           $12,860,135

Sample Size

We selected a sample size of 110 transactions. The sample size by stratum was:

                            Stratum                Number of Sample Items
                               1                             30
                               2                             30
                               3                             35
                               4                             15
                              Total                         110

Source of Random Numbers

We used the OIG/OAS statistical software to generate the random numbers.

Method of Selecting Sample Items

We consecutively numbered each stratum. After generating the random numbers for strata 1, 2,
and 3, we selected the corresponding frame items. For stratum 4, we selected all 15 transactions.

Estimation Methodology

We used the OIG/OAS statistical software to estimate the amount of unallowable administrative
and clerical nonsalary costs claimed as direct costs. The F&A costs associated with the
unallowable administrative and clerical nonsalary costs were also estimated using the OIG/OAS
statistical software.




HHS Awards at The University of South Florida (A-04-12-01016)                                  22
                        APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                  Sample Results for Salary Transactions


                                                                                                Value of
                                                                                                 F&A
                                                                                               Associated
                                                                Number of        Value of        With
           Frame       Value of       Sample      Value of     Unallowable     Unallowable    Unallowable
Stratum     Size        Frame          Size       Sample       Transactions    Transactions   Transactions
   1        7,310      $3,448,426        30       $15,597           9             $4,589         $1,783

   2        2,590       3,703,886        30         42,205          9              9,625         3,642

   3        1,867       4,604,608        30         71,872          9             19,714         9,265

   4         22           205,058        22        205,058          7             51,690         28,706

 Total     11,789    $11,961,978        112       $334,732          34           $85,618        $43,396

                          Estimated Value of Unallowable Salary Transactions
                         (Limits Calculated for a 90-Percent Confidence Interval)

                                     Unallowable Transactions            Unallowable F&A

                Point estimate                $3,227,657                      $1,354,132
                Lower limit                    2,270,266                         950,386
                Upper limit                    4,185,048                       1,757,877




    HHS Awards at The University of South Florida (A-04-12-01016)                                   23
                                    Sample Results for Nonsalary Transactions

                                                                                                               Value of
                                                                                                                F&A
                                                                                                              Associated
                                                                        Number of           Value of            With
             Frame        Value of        Sample       Value of        Unallowable        Unallowable        Unallowable
Stratum       Size         Frame           Size        Sample          Transactions       Transactions       Transactions
   1         14,501       $2,464,661         30            $3,743             4                      $609                   $286

   2           3,873       5,293,147         30            48,652            11                   18,800                 8,583

   3             361       4,094,787         35           434,446            14                   59,161                73,437

   4               15      1,007,540         15         1,007,540            11                   60,986               347,303
 Total       18,750     $12,860,135         110       $1,494,381             40                $139,556            $429,609


                            Estimated Value of Unallowable Nonsalary Transactions
                             (Limits Calculated for a 90-Percent Confidence Interval)

                                         Unallowable Transactions                 Unallowable F&A

                Point estimate                    $3,098,348                       $2,212,807
                Lower limit                        1,731,905 13                     1,514,733 14
                Upper limit                        4,465,400                        2,911,168




       13
         In accordance with OAS policy, we did not use the results from stratum 1 in calculating the estimated
       overpayments. Instead, we added the actual overpayment from stratum 1 ($609) to the lower limit ($1,731,296),
       which resulted in an adjusted lower limit of $1,731,905.
       14
         In accordance with OAS policy, we did not use the results from stratum 1 in calculating the estimated F & A
       overpayments. Instead, we added the actual overpayment from stratum 1 ($286) to the lower limit ($1,514,447),
       which resulted in an adjusted lower limit of $1,514,733.


       HHS Awards at The University of South Florida (A-04-12-01016)                                                   24
       APPENDIX E: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                     Report       Date
                          Report Title                              Number       Issued
Review of Select Expenditures Claimed by The Research            A-02-11-02008   8/28/12
Foundation of the State University of New York, State
University of New York at Stony Brook
Florida State University Did Not Always Claim Selected Costs     A-04-11-01095   7/19/12
Charged Directly to Department of Health and Human Services
Awards in Accordance With Federal Regulations and National
Institutes of Health Guidelines

Review of Administrative and Clerical Costs at The Ohio State    A-05-11-00030   12/13/11
University for the Period July 1, 2008, Through June 30, 2010
Review of Select Expenditures Claimed by The Research            A-02-11-02000   10/13/11
Foundation of the State University of New York, State
University of New York at Albany

Review of Administrative and Clerical Costs at Dartmouth         A-01-11-01500   8/05/11
College for Fiscal Years 2009 Through 2010

Review of Administrative and Clerical Costs at Duke University   A-04-05-01014   1/21/09
for the Period October 1, 2002, Through September 30, 2004




HHS Awards at The University of South Florida (A-04-12-01016)                           25
             APPENDIX F: UNIVERSITY OF SOUTH FLORIDA COMMENTS 





                                                          UNIVERSITY OF
                                                          SOUTH FLORIDA



                                                                                                January 6, 2014
              Lori S. Pilcher
              Department of Health and Human Services
              Office of Inspector General
              Office of Audit Services, Region IV
              61 Forsyth Street, SW, Suite 3T41
              Atlanta, GA 30303

               Re: Audit Report Number: A-04-12-01016

              Dear Ms. Pilcher:

              The University of South Florida appreciates the opportunity to respond to the November 20,2013 U.S.
              Department of Health and Human Services ("DHHS") draft audit report titled "The University of South
              Florida Did Not Always Cla im Costs in Accordance With Federal Regulations". Our response consists of
              the enclosed global comments, and a detailed transaction-by-transaction discussion of each cost
              questioned by the government. We have also submitted a set of binders with sample-by-sample tabs
              that contain detailed supporting documentation for each t ransaction. We ask that DHHS maintain the
              confidentia lity of our transaction-by-transaction discussion and the supporting documentation, which
              contain confidential and proprietary information exempt from disclosure under FOIA.

              We would be pleased to meet with you and your team at any point as you consider the materia l we
              submit today. In the meantime, we will look forward to your final report and to resolving this matter as
              expeditiously as possible.

              Sincerely,


               ~~­
               "1\(Lf\..Ccc..

              Rebecca Pulg
              Assistant Vice President, Research & Innovation
              University of South Florida




                           USF R ESEARCH &      ] NNOVATION •      OFFICE OF THE SENIOR VICE PRESIDENT
                           Universi[y ofSouth Flurida • 3702 Spccnum lllvd., Suite 165 • Tampa, FL 316 12-9445
                                        (813} 974-55 70 • Fax (811) 974-4962 • www.research.u;f.edu




HHS Awards at The University ofSouth Florida (A-04-/2-01016)                                                             26
                                                                                                    January 6, 2014
                                                                               University of South Florida Response



                               University of South Florida- Response to Draft Audit Report




             The University of South Florida ("USF" or "the University"} submits these comments in response to
             the November 20, 2013 U.S. Department of Health and Human Services ("DHHS"} draft audit report
             titled "The University of South Florida Did Not Always Claim Costs in Accordance With Federal
             Regulations" (hereinafter "the Draft Audit Report"}.

             These comments on the Draft Audit Report are organized into the following sections: (a} the
             University's position on the costs the auditors preliminarily questioned, (b) the University's views on
             the auditors' observations regarding the University's oversight of its federally sponsored projects,
             and (c) notwithstanding its disagreement with the Draft Audit Report's findings, a brief discussion of
             some structural enhancements that the University believes will further improve its sponsored
             projects administrative infrastructure.

             Although the University appreciates the work of the DHHS audit team , USF respectfully disagrees
             with most of the Draft Audit Report's findings. As discussed in detail below, most of the questioned
             salary transactions involve individuals who are characterized in the Draft Audit Report as
             administrative and clerical personnel and who, therefore, should not have been charged directly to
             DHHS awards. However, a large majority of those University employees were performing technical
             or programmatic work. Furthermore, even if that were not the case, the projects to which they were
             charged were generally large, complex, data intensive, international, multi-site clinical trials that are
             quintessential "major projects." In the area of non-salary charges, most of the questioned costs
             relate to the Draft Audit Report's conclusions (a) that a laboratory supply agreement should have
             been treated as a subaward , thereby limiting F&A recovery, and (b) that supporting documentation
             was inadequate. As described in detail below, the University has fully addressed those issues.
             Because the University believes that most of the preliminarily questioned costs are allowable, it also
             disagrees with the Draft Audit Report's observation that it was not adequately overseeing its DHHS
             sponsored projects .

             A.      The Draft Audit Report's Preliminarily Questioned Costs

             The Draft Audit Report explains that the auditors reviewed a random sample of 112 salary and 110
             non-salary transactions. The Draft Audit Report further explains that the auditors questioned 43
             salary transactions and 43 non-salary transactions.

             In the salary category, the auditors tentatively reached the following conclusions:

                         Thirty-five transactions were questioned on the basis that they reflected administrative or
                         clerical compensation costs that should have been recovered through the University's
                         F&A rate.
                         Three transactions were questioned on the basis that they reflected salary payments in
                         excess of the employee's base salary rate .
                     • 	 Two salary charges purportedly exceeded the NIH operating guidelines on graduate
                         student compensation.




HHS Awards at The University ofSouth F lorida (A -04-/2-01016)                                                           27
                                                                                                January 6, 2014
                                                                            University ofSouth Florida Response


                         One transaction was associated with the distribution of what the auditors characterized 

                         as unallowable promotional items. 

                         Two salary charges were deemed to have been misallocated . 


           In the non-salary category, the auditors tentatively reached the following conclusions:

                      Sixteen charges that were otherwise allowable were incurred under an instrument
                      improperly treated as a vendor agreement as opposed to a subaward ; thus the auditors
                      questioned the amount of F&A recovered.
                  • 	 Fourteen transactions were questioned because of a lack of adequate documentation .
                      Four transactions related to service center costs purportedly not charged in accordance
                      with applicable regulations.
                      Four transactions were deemed to have been for general use supplies.
                  • 	 Three transactions were found unallowable.
                  • 	 One transaction was deemed unreasonable. 

                      One transaction was considered unallocable. 


          Accompanying these comments on the Draft Audit Report as Attachment A is a detailed, transaction­
          by-transaction analysis of the questioned costs. The remainder of this section provides some more
          general responses to the Draft Audit Report's findings.

                  1. 	      The University's Views on the Questioned Salary Costs

                            a. 	    Costs characterized as administrative/clerical that are actually
                                    technical/programmatic

          The salary costs of technical/programmatic staff are addressed in OMS Circular A-21 , sec. F.6.b(1 ),
          which explicitly provides that they are to be treated as direct costs whenever they are specifically
          identifiable with a particular sponsored project. Most of the 35 transactions questioned on the basis
          that they reflect improper direct charging of admin istrative/clerical personnel are actually associated
          with individuals performing technical work. 1

          For example, the Draft Audit Report questions nine salary costs paid to eight Clinical Research
          Administrators who were charged directly to the previously mentioned large, multi-site, international
          clinical trial focusing on diabetes. Reliance on the fact that the job title of these employees includes
          the word "administrator" is an untenable example of form over function . These employees actually
          perform highly specialized and technical tasks including laboratory monitoring , specimen quality
          control, serving as content experts on one or more protocols, and managing adverse event
          reporting. The project budget also explicitly included costs for these individuals. Thus, each of
          these nine transactions should be accepted. One other Clinical Research Administrator who
          performed similar functions on another study and whose salary costs were also questioned should
          also be allowed .




          1
            OMS Circular A-21 , sec. F.6.b(2) addresses the circumstances when adm inistrative and clerical
          personnel can be charged directly to federal awards and is discussed in detail below.


                                                              2




HHS Awards at The University ofSouth Florida (A -04-12-01016)                                                        28
                                                                                                  January 6, 2014
                                                                             University of South Florida Response


            Likewise, the Draft Audit Report questions the costs of numerous professional employees who have
            titles such as "Assistant Director," "Associ ate Director," and "Research Compliance Administrator."
            These are not, however, administrative or clerical positions. For example, the USF's "Senior
            University Leadership Classification Table" explains that in terms of the "Scope of Leadersh ip"
            criterion , an Assistant Director "[m]ust be the manager of a program, function or subdivision of a
            larger department, responsible for policy, execution and results ." Likewise, in terms of management
            expectations, an Assistant Director's "primary duty is management of staff and execution of
            professional job duties." Finally, an Assistant Director's decisions "have significant impact within the
            function or program and influence service delivery on a department and division basis." In sum,
            these are highly trained, professional employees who make substantial technical contributions to the
            projects they support. For example, one such employee was the technical expert for specimen
            isolation and storage techniques, including those governing serum, plasma, RNA, DNA, and peripheral
            blood mononuclear cells. Another employee provided project-specific regulatory oversight required
            to perform a clinical trial. The salary costs of these technical/programmatic personnel should be
            accepted.

            Overall, and as discussed in detail in Attachment A, virtually all of the salary costs for the employees
            mischaracterized as administrative or clerical should be accepted.

                    b.      Charging administrative and clerical salary expenses directly

            For the reasons discussed above, most of the 35 transactions questioned on the basis that they
            were improperly direct charged administrative and clerical salary costs are in fact associated with
            specialized technical/programmatic employees. But, even if the auditors continue to view them as
            adm inistrative/clerical personnel, they would still be appropriate direct charges, as are those few
            employees who were actually providing administrative or clerical services.

            OMS Circular A-21, sec. F.6.b(2) addresses when a university may charge administrative and
            clerical salary costs directly to federal awards:

                   The salaries of administrative and clerical staff should normally be treated as F&A
                   costs . Direct charging of these costs may be appropriate where a major project or
                   activity explicitly budgets for administrative or clerical services and individuals
                   involved can be specifically identified with the project or activity.

            Circular A-21 also provides six examples of the type of federal award that can be considered a major
            project:

                   Large, complex programs such as General Clinical Research Centers, Primate
                   Centers, Program Projects, environmental research centers, engineering research
                   centers, and other grants and contracts that entail assembling and managing teams
                   of investigators from a number of institutions.

                   Projects which involve extensive data accumulation, analysis and entry, surveying,
                   tabulation, cataloging , searching literature, and reporting (such as epidemiological
                   studies, clinical trials, and retrospective clinical record s studies).




                                                               3




HHS A wards at The University ofSouth Florida (A-04-12-01016)                                                          29
                                                                                                   January 6, 2014
                                                                               University ofSouth Florida Response


                  Projects that require making travel and meeting arrangements for large numbers of
                  participants, such as conferences and seminars.

                  Projects whose principal focus is the preparation and production of manuals and
                  large reports, books and monographs (excluding routine progress and technical
                  reports).

                  Projects that are geographically inaccessible to normal departmental administrative
                  services, such as research vessels, radio astronomy projects, and other research
                  fields sites that are remote from campus.

                  Individual projects requiring project-specific database management ; individualized
                  graphics or manuscript preparation; human or animal protocols; and multiple project­
                  related investigator coordination and communications.

           /d. at Ex. C. The University notes that Circular A-21 is clear that its examples are just examples and
           that the foregoing list does not exhaust the types of projects that can be considered major.

           As reflected in the examples, the common denominator for major projects is that they require a level
           of administrative support beyond that which a typical academic department can provide. In some
           cases, that demand is due to the size and complexity of the project, in ot hers it is because the
           project generates significant data that needs to be managed, and there are also projects that cannot
           be served by the usual level of administrative resources because of their location. In all cases,
           however, it is the unusual demand for administrative support that establishes the "unlike
           circumstances" and not the duties being performed by a given individual.

           Notwithstanding Circular A-21's specific focus on large, complex projects, and projects that require
          management of large amounts of data, 17 of the 35 salary transactions questioned in the Draft Audit
          Report on the basis that they reflect improperly direct-charged administrative and clerical salary
          costs are associated with a very large, multi-site, international diabetes-focused c linical trial that is, if
          not the largest, among the largest federally sponsored projects currently in operation. In its budget
          justification, the University expressly stated that the project's size, scope, and complexity reflected
          the "unlike circumstances" of a major project to which administrative and clerical salaries can be
          charged directly. The University also explicitly budgeted for necessary administrative and clerical
          positions, and the sponsor accepted those budgets. For example, the University expressly
          budgeted, by name, for a Fiscal and Business Analyst to assist with the massive amount of financial
          work associated with this project. That cost, and similar administrative and clerical salary costs
          charged to the diabetes-related clinical trial, should be accepted .

          In another large, multi-site, international clinical trial , the University specifically budgeted for a
          dedicated systems administrator to help manage the massive amounts of data the study
          accumulated. As was the case with the diabetes-related trial , the University stated in its budget that
          the project's size, scope and complexity was consistent with the "unlike circumstances" of a major
          project and that it was, therefore, going to charge administrative and clerical salaries directly. The
          University believes that this clinical trial is also a major project and the system administrator charge
          should also be accepted.




                                                               4




HHS Awards at The University ofSouth F lorida (A -04-12-01016)                                                             30
                                                                                                  January 6, 2014
                                                                              University ofSouth Florida Response


             The University respectfully submits that the foregoing charges, and other similar charges discussed
             in detail in Attachment A , are allowable.

                            c.      Transactions questioned on the basis of the salary rate

             The Draft Audit Report preliminarily questioned three transactions on the basis that compensation in
             excess of an employee's base salary was charged to a federal award .

            The first of the three questioned costs involved a salary adjustment that was actually implementing a
            retroactive pay increase. The University has produced ample documentation showing that this
            payroll adjustment was accurately allocated. The second transaction involved extra compensation
            for which the University sought and obtained written sponsor approval. Although overtime is an
            allowable cost to HRSA awards (see HHS Grants Policy Statement at 11 .40) , the University will
            concur with the Draft Audit Report's finding to the extent the approved extra-compensation was paid
            at a time-and-a-half rate . The third charge relates to $24 of overtime for which the University will no
            longer seek recovery.

                            d. 	    Transactions allegedly in excess of the NIH guidelines on graduate
                                    student compensation

            The first of these transactions was the result of an inadvertent mischaracterization of an employee's
            status w ithin the University. At the time the University submitted the proposal that resulted in the
            award of the grant to which this employee was charged, the individua l was a graduate student.
            However, by the time of award, the individual was no longer a student and had instead been re-hired
            as an Other Professional Services employee. Thus, the employee was not subject to the NIH
            guidelines addressing graduate student compensation. The second transaction involved a graduate
            student whose salary charge was within the cha rgeable compensation limit, but did exceed the rate
            of awardable compensation. Although NIH may only award graduate student compensation at a rate
            equivalent to the zero-level post-doctoral NRSA stipend, a university may rebudget to pay salary
            costs up to the rate it compensates first-year postdoctoral scientists performing comparable work.
            NIH Notice NOT-OD-02-017 (December 10, 2001 ). The University, therefore, submits th is an
            allowable charge.

                            e. 	    The unallowable transaction

            The Draft Audit Report questioned the salary charge associated with an employee whose duties
            were characterized as distributing "promotional items," in this case key chains associated with the
            large diabetes-related clinical trial. The auditors reasoned that because promotional items are
            unallowable expenses, the salary costs associated with an individual who is tasked with distributing
            such items are also unallowable. Actually, however, the key cha ins at issue in this finding are not
            promotional items but are instead used to incentivize individuals to participate in a clinical trial that
            has a goal of screening more than 20,000 people per year. Moreover, a modification to the clinical
            trial contract explicitly added to the agreement's scope of work public relations activities that
            included the use of incentive items to facilitate recruitment. This cost should, therefore, be accepted .




                                                               5




HHS Awards at The University ofSouth Florida (A-04 -12-01016)                                                           31
                                                                                                 January 6, 2014
                                                                            University of South Florida Response


                          f.      Misallocated transactions

          The Draft Audit Report questioned two costs for allocation reasons. The first transaction relates to a
          bonus payment that the Draft Audit Report found was not allocated in accordance with the
          employee's effort. The University believes that the auditors may not have understood during their
          fieldwork that two different account numbers appearing on the employee's effort report were
          associated with the same project. Specifically, it is the University's practice to assign a new internal
          project number to a grant after receipt of a competitive renewal. Accompanying this submission is
          additional data that establishes the allowability of this cost. The second transaction involves the
          terminal leave payout of an employee. The Draft Audit Report tentatively concluded that this
          payment was unreasonably posted to the award that supported the employee when she left the
          University and was not allocated based on the individual's former workload. This was done,
          however, consistent with University policy inasmuch as the employee in question worked exclusively
          on the DHHS grant in question when she left and had worked exclusively on this project during the
          time required to accrue the amount of leave for which she was paid.

                  2.      The University's Views on the Questioned Non-Salary Costs

                          a.      Laboratory supplies

          The Draft Audit Report allowed 16 transactions associated primarily with the purchase of laboratory
          supplies for the previously mentioned large diabetes-related clinical trial but took the position that the
          University recovered F&A in excess of the allowable amount because the contract under which
          those supplies were procured should have been designated a subaward. The University respectfully
          disagrees with the Draft Audit Report's conclusion.

          The University has three separate agreements with the company that provides the laboratory
          supplies at issue. The agreement under which the laboratory supplies were procured was
          established so that the project's more than 200 clinical trial sites could order and receive directly
          necessary laboratory supplies.

          The University submits this is a classic vendor relationship inasmuch as the laboratory services
          provider:

                      Offers the service as part of its normal business operations;
                  • 	 Provides a similar service to many different customers;
                      Operates in a competitive environment (i.e., it competes with other companies that
                      provide the same services); and
                      Was not involved with providing programmatic or intellectual support to the project.

          Finally, the Draft Audit Report includes a footnote stating that the University began treating t his
          agreement as a subaward after the completion of the audit period. That is not accurate. The
          University's subaward relationship with this company is under a separate agreement and is for the
          purpose of providing biosample repository services. The company is considered a subawardee
          under that agreement because it carries out aspects of the clinical trial program, including receiving ,
          accessioning , and storing biological samples.




                                                             6




HHS Awards at The University ofSouth Florida (A -04-12-01016)                                                          32
                                                                                                 January 6, 2014
                                                                            University of South Florida Response


            Because these are separate agreements with separate scopes of work, the University submits that
            the F&A recovered under the laboratory supplies agreement was an allowable cost that should be
            accepted.

                            b.      Cost questioned because of a lack of documentation

            The Draft Audit Report questioned 14 transactions on the basis that they were not adequately
            documented.

            Most of the questioned transactions relate to shipping costs charged to the large diabetes-related
            clinical trial. The Draft Audit Report questioned these costs on the basis that the University had not
            provided sufficient documentation to establish that the costs were allowable. A significant majority of
            the transactions involved sending blood samples from clinical tr ial sites to laboratories. The
            University believes that the costs associated with shipping these blood samp les are allowable. A
            limited number of the shipments transported , among other items, diabetes screening kits and other
            types of clinical supplies. These too are allowable costs. Although the University believes it
            provided a significant amount of documentation during the fieldwork phase of the audit,
            accompanying this response are additional highly detailed analyses of each of the questioned
            shipping costs that explain through shipping manifests what was being transported and also identify
            the sender and recipient of the packages. Given this additional support, the University subm its that
            all of these costs should be accepted.

            Another questioned cost related to a subcontract awarded to a partner university participating in a
            large clinical trial project. The contract at issue supported DNA analyses and genotyping and
            specifically addressed in the project's scope of work. In addition, the University has attached the
            relevant contract, invoice, and contracting officer approval to enter into the agreement.

                           c.      Service centers

            The Draft Audit Report questioned three service center transactions related to per diems for
            research animals on the basis that the University did not establish an allocation methodology fo r
            those charges. As explained in the materials accompanying this response, the University believes in
            each case that the investigator' s allocation methodology was reasonably designed to charge
            projects in accordance with proportional benefit among the projects that utilized the animals in
            question . These are allowable costs .

            The Draft Audit Report questioned another service center transaction related to te lecom costs, and
            the University concurs with the auditors' views on that charge.

                           d.      Other questioned non-salary transactions

            The Draft Audit Report has tentatively questioned an additional nine transactions on the basis that
            they reflect administrative costs, or costs that are unallowable, unreasonable, or unnecessary.

            OMB Circular A-21, sec. F.6.b(3) addresses non-salary administrative expenses and explains that
            "[i]lems such as office supplies, postage, local telephone costs, and memberships shall normally be
            treated as F&A costs." Costs that are "normally" treated as F&A costs may be treated as direct



                                                              7




HHS Awards at The University ofSouth Florida (A-04-12-01 016)                                                         33
                                                                                                 January 6, 2014
                                                                            University of South Florida Response


           costs if the University can "readily and specifically" identify them "with a particular sponsored
           project." There is no major project rule applicable to non-salary costs. Also noteworthy is that
           Circular A-21 explains that whether a cost can be specifically identified with a particular sponsored
           project does not depend on whether that cost is administrative or technical. "[l]dentification with the
           sponsored work rather than the nature of the goods and services involved is the determining factor
           in distinguishing direct costs from F&A costs of sponsored agreements." OMB Circular A-21 at sec.
           D.2.

          Of the costs questioned on the basis that they were administrative charges that should have been
          recovered through the University's F&A rate, the University co ncurs with the Draft Audit Report's
          decision to question certain toner costs but submits that the computer costs are allowable because
          they were used solely to further the aims of the project to which they were charged. Moreover, the
          University included, and the sponsor accepted , a budget that proposed the purchase of replacement
          computers.

          As for the purportedly unallowable charges, two are related to the outreach efforts of the large
          diabetes-related clinical trial and both are allowable. The first questioned cost pertains to key chains
          that were referred to above in our discussion of questioned salary costs and that were used to
          incentivize participation in the clinical trial project. The University agrees that "promotional items"
          are not allowable charges to federal awards but these key cha ins are not "promotional items."
          Circular A-21, sec. J.1 recognizes that public relations activities required by the sponsored
          agreement and activities that are part of the outreach effort for the sponsored agreement are
          allowable. One aspect of the diabetes-related trial is to screen more than 20,000 individuals per
          year. Thus, the contract specifically requires the University to engage in public relations efforts,
          including the use of incentive items such as the key chains to encourage and incentivize
          participation in the trial's screening efforts. The relevant contract modification accompanies this
          response. Another cost was characterized as an unallowable donation, but it was actually a
          payment to a non-profit organization to participate in a diabetes-related outreach event. As noted
          above , such activities are required by the contract and this expense was specifically vetted with the
          sponsor.

          The third transaction relates to a media consultant cost. The University has located the relevant
          agreement, which includes a detailed scope of work and information on the costs charged . The cost
          was also addressed in detail in a progress report that explained why the consultant's efforts
          benefitted the grant's health disparities center. Thus, the University requested and received
          additional funding to support the consultant's work. This should be accepted .

          Finally, a fiber optic cable charge was questioned on the basis of whether it was used to further the
          objectives of the award to which it was charged . The cables were part of a dedicated information
          technology system that supported a highly data intensive clinical trial and are, therefore , allowable.
          The University does, however, acknowledge that three spare cables should be considered
          unallowable contingency costs and to that extent concurs with the Draft Audit Report's finding.

                  3.      Summary of the University's position on the questioned costs

          Accompanying this submission is extensive documentation and analysis supporting the vast maj ority
          of the preliminarily questioned costs. To assist the auditors' in their review of this material , we have



                                                             8




HHS Awards at The University ofSouth F lorida (A-04-12-01016)                                                         34
                                                                                                     January 6, 2014
                                                                                University of South Florida Response


            prepared Attachment 8 , which is a table that briefly summarizes the University's views on each of
            the costs questioned in the Draft Audit Report. As reflected in Attachment B, the University
            respectfully requests that the auditors (a) accept $106,317 of the questioned salary costs; (b) accept
            $166,582 of the questioned non-salary costs, plus the F&A on the lab supplies; and (c) issue a Final
            Audit Report reflecting these adjustments.

            Finally, although the University reserves the right to challenge the auditors' use of the OAS/OIG
            statistical software referred to in the Draft Audit Report, it believes it would be premature to do so at
            this time because there are other reasons why any repayment should be limited to the dollar value of
            any costs ultimately found to be unallowable. First, 19 of the salary transactions and 33 of the non­
            salary transactions are associated with the large diabetes-related clinical trial. Because of its sheer
            magnitude, that project is unique. That project has a highly unusual scope of work that is not
            reflective of the vast majority of the University's sponsored projects. Assuming for the sake of
            argument that the auditors continue to view some of these unusual costs as unallowable, which they
            should not, there is no basis to infer that they are reflective of broader weaknesses. Finally,
            because most of the preliminarily questioned costs are allowable, there is no basis to infer
            widespread unallowable costs and extrapolate the audit findings.

            B. 	    The Auditors' Position That the University Did Not Always Provide Adequate
                    Oversight

            Pages six through seven of the Draft Audit Report include a section titled "The University did not
            always provide adequate oversight,' which we have reproduced in its entirety below:

                    These unallowable transactions occurred because the University did not provide
                    adequate oversight to ensure consistent compliance with Federal regulations.
                    Although its procedures often incorporated text from the applicable cost principles,
                    the University's Division of Sponsored Research did not review tra nsactions to
                    ensure that the principal investigator's proposed transactions fully complied with
                    Federal regulations. Without adequate oversight, the University could not ensure
                    that administrative expenses charged as direct costs to HHS awards complied with
                    applicable Federal regulations.

            The University takes very seriously its obligation to charge only allowable costs to federal awards
            and respectfully, but strongly, disagrees that its oversight was wanting. 2

            Because the Draft Audit Report's observation regarding the University's oversight is limited to direct
            charging administrative-type costs, the University will assume that the auditors identified no
            weaknesses with its oversight in other areas. In the area of charging administrative type costs
            directly, the University submits that of the 35 salary charges questioned on the basis that they were
            unallowable administrative/clerical costs, 27 were associated with individuals performing technical

            2
              The Draft Audit Report states that one of the reasons it performed this audit was that the Florida Auditor
            General "found that Federal grant expenditures were not monitored to ensure expenditures were properly
            approved, valid, reasonable, and necessary."           The University respectfully suggests that is a
            mischaracterization of the University's FY2012 A-133 audit, which had a finding raising an issue
            concerning charging administrative costs directly to federal awards . For reasons discussed in this
            response, the University disagreed with that finding .


                                                                 9




HHS Awards at The Un iversity ofSouth Florida (A -04-12-01016)                                                             35
                                                                                                  January 6, 2014
                                                                             University of South Florida Response


           work. The numerous Clinical Research Administrators whose salaries were questioned are a prime
           example of this issue. All of the 7 charges that actually involved a decision to direct charge
           administrative and clerical salaries we re allowable.3 Finally, almost all of the projects involved in the
           questioned "administrative" costs were large, data intensive, international clinical t rials-in other
           words classic "major projects. " With respect to non-salary administrative expenses, the University
           has explained why 39 of the 43 questioned costs were allowable or partially allowable. In sum , the
           University does not believe that there were a significant amount of unallowable administrative type
           costs charged to federal awards. Because the assumption on which it is based is flawed , so too is
           the Draft Audit Report's conclusion regarding the efficacy of the University's oversight.

           C. 	    The University's Enhancements to its Sponsored Projects Administrative
                   Infrastructure

           Although the University disagrees with the oversight section of the Draft Audit Report, it is worth
           noting that USF has numerous policies, procedures, and processes in place that apply to cha rging
           administrative-type costs to federal awards, as well as all other aspects of research administration.
           In the area of direct charging administrative-type costs, the University has developed and
           implemented a Research and Research Grants policy that requires that all sponsored project
           proposals be reviewed by the Division of Sponsored Research. There are also guidelines
           specifically addressing the issues associated with charging costs directly or indirectly and a separate
           set of guidelines addressing CAS compliance.

          Recently, the University has developed some enhancements that further strengthen its policies and
          procedures in the area of charging administrative-type costs directly to federal awards. For
          example, the University has promulgated a Clarification or Change in Procedure titled "Determining
          Costs Applicable to Sponsored Agreements" and has also developed new CAS exception budget
          account codes that provide more granular insight into administrative-type costs charged directly to
          Federal awards.

          The University also has robust training initiatives for all members of its sponsored researc h
          community. For example, there is a "USF Certified Research Administrator" program that covers,
          among other topics, cost allowability.     The University has also developed "The Research
          Administration Improvement Network (TRAIN®) " with the goal of developing its research support
          infrastructure by enhancing the professional competencies of those who contribute to the researc h
          enterprise, implementing training and education, improving business processes and reporting, and
          enhancing communication within the research community. To those ends, among TRAIN's
          components are the FacultyOne-Stop and TRAIN® Toolbox, which collectively provide the USF
          sponsored research community with quick links to guides and instructions, tools and forms, and
          online training addressing each phase of the research administration life cycle. Among the "quick
          links" are ones to Sponsored Research Forms and the detailed Sponsored Research Desk Manual.

          Finally, as the University has noted throughout this response, most of the preliminarily questioned
          costs relate to a few large clinical trial projects. Several of these projects have overlapping staff and
          are currently administered by the University's College of Medicine. The University has recently
          completed the administrative process of establishing a new independent research center ca lled the

          3
            The 35th charge involved a training grant that the University understands was inadvertently
          included in the sample.


                                                              10




HHS Awards at The University ofSouth F lorida (A -04-12-01016)                                                          36
                                                                                                 January 6, 2014
                                                                             University ofSouth Florida Response


            University of South Florida Health Informatics Institute, which will house and administer these
            significant clinical trial projects. Among the benefits of establishing the Health Informatics Institute
            will be the creation of a dedicated team of administrative professionals who will be highly familiar
            with these complex projects.

            Conclusion

            The University believes that 41 of the 43 questioned salary charges and 39 of the 43 questioned
            non-salary charges are allowable, either in whole or in part. Detailed documentation supporting the
            University's position accompanies this response as Attachment A and its accompanying binders of
            source documentation.




                                                              11




HHS Awards at The Un iversity ofSouth Florida (A -04-12-01016)                                                         37
